<html>
<title> - [H.A.S.C. No. 111-83]OVERSIGHT OF THE ELECTROMAGNETIC AIRCRAFT LAUNCH SYSTEM (EMALS)</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                                     

                         [H.A.S.C. No. 111-83]

    OVERSIGHT OF THE ELECTROMAGNETIC AIRCRAFT LAUNCH SYSTEM (EMALS)

                               __________

                                HEARING

                               BEFORE THE

             SEAPOWER AND EXPEDITIONARY FORCES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JULY 16, 2009

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
  

                  U.S. GOVERNMENT PRINTING OFFICE
52-945                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             SEAPOWER AND EXPEDITIONARY FORCES SUBCOMMITTEE

                   GENE TAYLOR, Mississippi, Chairman
SOLOMON P. ORTIZ, Texas              W. TODD AKIN, Missouri
JAMES R. LANGEVIN, Rhode Island      ROB WITTMAN, Virginia
RICK LARSEN, Washington              ROSCOE G. BARTLETT, Maryland
BRAD ELLSWORTH, Indiana              J. RANDY FORBES, Virginia
JOE COURTNEY, Connecticut            DUNCAN HUNTER, California
JOE SESTAK, Pennsylvania             MIKE COFFMAN, Colorado
GLENN NYE, Virginia                  THOMAS J. ROONEY, Florida
CHELLIE PINGREE, Maine
ERIC J.J. MASSA, New York
                  Will Ebbs, Professional Staff Member
               Jenness Simler, Professional Staff Member
                  Elizabeth Drummond, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Thursday, July 16, 2009, Oversight of the Electromagnetic 
  Aircraft Launch System (EMALS).................................     1

Appendix:

Thursday, July 16, 2009..........................................    33
                              ----------                              

                        THURSDAY, JULY 16, 2009
    OVERSIGHT OF THE ELECTROMAGNETIC AIRCRAFT LAUNCH SYSTEM (EMALS)
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Akin, Hon. W. Todd, a Representative from Missouri, Ranking 
  Member, Seapower and Expeditionary Forces Subcommittee.........     3
Taylor, Hon. Gene, a Representative from Mississippi, Chairman, 
  Seapower and Expeditionary Forces Subcommittee.................     1

                               WITNESSES

Antonio, Capt. Brian, USN, Program Manager for Future Aircraft 
  Carriers, U.S. Navy............................................     7
Architzel, Vice Adm. David, USN, Principal Military Deputy to the 
  Assistant Secretary of the Navy (Research, Development, and 
  Acquisition), U.S. Navy........................................     3
Mahr, Capt. Randy, USN, Program Manager for Aircraft Launching 
  and Recovery Equipment (ALRE), U.S. Navy.......................     7

                                APPENDIX

Prepared Statements:

    Akin, Hon. W. Todd...........................................    39
    Architzel, Vice Adm. David, joint with Capt. Randy Mahr and 
      Capt. Brian Antonio........................................    40
    Taylor, Hon. Gene............................................    37

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Taylor...................................................    53

Questions Submitted by Members Post Hearing:

    Mr. Taylor...................................................    57

 
    OVERSIGHT OF THE ELECTROMAGNETIC AIRCRAFT LAUNCH SYSTEM (EMALS)

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Seapower and Expeditionary Forces Subcommittee,
                           Washington, DC, Thursday, July 16, 2009.
    The subcommittee met, pursuant to call, at 10:04 a.m., in 
room 2212, Rayburn House Office Building, Hon. Gene Taylor 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. GENE TAYLOR, A REPRESENTATIVE FROM 
   MISSISSIPPI, CHAIRMAN, SEAPOWER AND EXPEDITIONARY FORCES 
                          SUBCOMMITTEE

    Mr. Taylor. The subcommittee will come to order. Today the 
subcommittee meets in open session to receive testimony from 
officials of the United States Navy on the current status of 
the electromagnetic aircraft launch system, or EMALS. The EMALS 
system is an electromagnetic catapult designed to use on the 
Ford class aircraft carriers. If the system delivers its full 
promised capability, Ford class carriers will have a catapult 
system that is far superior to the steam catapults of the 
Nimitz class.
    The operational advantages are increased launch envelopes--
that is the ability to launch both heavier and lighter aircraft 
than steam catapults--higher sortie rates, reduced weight, 
reduced mechanical complexity, reduced maintenance and reduce 
carrier manning. Unfortunately, what brings us together today 
is that the development of the program is so far behind 
schedule that it threatens the delivery date of the United 
States Ford.
    For the record, I would like to briefly summarize the 
history of the program and the current status. EMALS was the 
core capability in the design of the next generation aircraft 
carrier, which the Navy called CVN-21 for the 21st century 
technology, which eventually became the USS Ford, CVN-78.
    In 1999, the Navy entered into technological demonstration 
contracts with two different contractors, General Atomics and 
Northrop Grumman Marine Systems, to develop prototypes for the 
electromagnetic catapult. By 2004, the Navy down-selected to a 
system proposed by General Atomics and entered into a system 
design and development contract, or SDD contract, to build a 
full-scale ship representative prototype at the Navy test 
facility at Lakehurst, New Jersey.
    That prototype was contracted to be completed in time for 
testing to begin in 2007. Testing was to have concluded up to 
two years. And presumably the results learned from the test 
program would influence the final production system, which 
would be shipped to the carrier construction yard for erection 
into the ship. It is now July of 2009, and full-scale testing 
is yet to begin at the Lakehurst facility.
    The Navy is now faced with almost complete concurrency of 
testing and production of the first ship set if they are to 
meet the in-yard delivery dates to keep the USS Ford on 
schedule. There are a number of subsystems in the complete 
EMALS system. And each subsystem has different in-yard delivery 
dates. But some of those dates are as early as the summer of 
2011. And to meet those dates, the production of the 
components, and at least the ordering of the material for the 
components, must begin now before full-scale testing of the 
prototype systems has begun.
    To be fair, some testing has already occurred. The high-
cycle tests for energy source systems is well underway, as is 
the highly accelerated life cycle testing of the launch motor 
segments. Those tests have identified some minor redesign 
issues, which can be incorporated into the production 
components. But until a full-scale catapult launch of the 
prototype occurs, questions will remain on the system's overall 
performance.
    I have been briefed, as I believe other members of this 
subcommittee have been briefed, that the issues in completing 
and delivering the SDD components were a result of the 
contractor's inexperience managing a major production effort. I 
find that answer unsettling because it is the Navy's 
responsibility to oversee what their contractors are doing and 
to identify problems before they become problems.
    I will note that a little over a year-and-a-half ago, the 
contractor did put in place an entirely new management and 
engineering team. Hiring away proven production engineers from 
both General Dynamics and Northrop Grumman. This new team seems 
to have righted the ship. But that ship is still on very 
dangerous seas.
    So what we have is a program that is so essential to the 
carrier that if it does not work, the nation has paid billions 
of dollars for an unusable ship. If the ship is delayed, the 
carrier is automatically delayed. I am sorry. And every day of 
delay will push the costs higher for the carrier.
    This is the first in what I intend to be a series of 
hearings on this program over the next few years. This is too 
important not to have close congressional oversight. I intend 
to continue close oversight of this program until it is 
delivered, installed, tested, certified for launching EMALS 
aircraft off the deck of the USS Ford.
    I would also like to remind you gentlemen that when 
Chairman Bartlett was the chairman of this committee and I was 
the ranking member, on any number of occasions representatives 
from the Navy visited him and me and said the littoral combat 
ship system was on time and on schedule and on cost only to 
have some time around November of 2006 one of those, ``aw, 
shucks,'' moments that has resulted in a ship that is well over 
twice the price it should be and 18 months late on each 
version. We cannot afford that on this program.
    And I do welcome you here today. And I do welcome you 
taking these responsible jobs and hopefully seeing to it that 
this program is back on track.
    Our witnesses today are Vice Admiral David Architzel, 
principal deputy to the Assistant Secretary Stackley; Rear 
Admiral (Select) Randy Mahr, program manager for EMALS; and 
Captain Brian Antonio, program manager for the Ford class 
aircraft carrier. Vice Admiral Architzel is representing the 
assistant secretary as the senior acquisition executive who is 
ultimately responsible for all Navy and Marine Corps 
acquisition programs. Admiral (Select) Mahr is the official 
whose only responsibility will be this program. Captain Antonio 
is responsible for building the entire carrier. He obviously 
has an interest in the success of EMALS.
    This year's National Defense Authorization Act directs the 
Secretary of the Navy to keep Admiral (Select) Mahr in his 
position until the completion of the system development testing 
and the successful production of the first ship's set of 
components. That means that the admiral select who has been 
selected will be in place for a number of years and will have 
the opportunity to visit again on this subject.
    I would now like to call on my friend from Missouri, the 
ranking member of the subcommittee, the Honorable Todd Akin, 
for any opening remarks he may wish to make.
    [The prepared statement of Mr. Taylor can be found in the 
Appendix on page 37.]

STATEMENT OF HON. W. TODD AKIN, A REPRESENTATIVE FROM MISSOURI, 
 RANKING MEMBER, SEAPOWER AND EXPEDITIONARY FORCES SUBCOMMITTEE

    Mr. Akin. Well, thank you, Mr. Chairman. I would just like 
to submit my remarks for the record, if I could and welcome our 
witnesses. My background was in engineering. And I used to work 
for IBM. We did a lot of project management.
    This is something that really has the attention, not only 
of our subcommittee and committee, but the Chief of Naval 
Operations, everybody else. This has got to work. And this is 
an important hearing. I am looking forward to having a chance 
to ask some questions. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Akin can be found in the 
Appendix on page 39.]
    Mr. Taylor. Thank you, Mr. Akin.
    Vice Admiral Architzel, I understand that you will deliver 
the combined opening statement. I also understand that you have 
a short movie that will demonstrate how the EMALS system would 
work on the ship. Please proceed.

STATEMENT OF VICE ADM. DAVID ARCHITZEL, USN, PRINCIPAL MILITARY 
   DEPUTY TO THE ASSISTANT SECRETARY OF THE NAVY (RESEARCH, 
            DEVELOPMENT, AND ACQUISITION), U.S. NAVY

    Admiral Architzel. Thank you, Chairman Taylor, Ranking 
Member Akin, and distinguished members of the committee. It is 
our honor to be to appear before you today to report on the 
development of the electromagnetic aircraft launching system, 
EMALS for the Gerald R. Ford CVN-78 class aircraft carriers and 
the Navy's plan for this effort.
    I am joined by Captain Randy Mahr, the program manager for 
aircraft launch and recovery equipment to my right and Captain 
Brian Antonio, the program manager for the CVN-78 aircraft 
carrier program to my left. I would like to submit our written 
statement for the record.
    Mr. Taylor. Without objection.
    Admiral Architzel. Thank you, sir. As today's tactical 
aircraft have evolved, the percentage of high-energy launches 
for the embarked airwing has steadily increased as has the 
attendant stress applied to those aircraft from today's steam 
catapult system. Likewise, with the higher loads required, the 
maintenance man-ours to maintain our carrier catapults has 
increased.
    The Navy recognized these trends and sought to replace 
steam catapults on the Ford class aircraft carriers with EMALS, 
electromagnetic aircraft launching systems, a system that is 
designed to reduce manual requirements, increased operational 
availability and give greater performance over legacy steam 
systems. Similarly, EMALS supports the CVN-78 key performance 
parameters such as sortie generation rate, reduced shipboard 
manning and will support current and future airwing operation 
requirements, which include the addition of the joint strike 
fighter and Navy Unmanned Combat Air System, or N-UCAS, in the 
future.
    EMALS is a critically important capability for our future 
carriers and embarked airwings. During its development over the 
past year, we have made good progress. But as you are aware and 
have pointed out, we have also had to overcome technical 
issues, programmatic challenges and cost growth.
    I want to leave this committee with two important 
takeaways. First, we are here today to provide you with the 
most up-to-date, straightforward answers as possible. And if we 
don't have answers to your questions, we will get them. Second, 
that the team--and that is the collective team on the 
government's side and industry side--is committed to delivering 
this capability with our principal industry partners, General 
Atomics and Northrop Grumman Shipbuilding.
    We are working hard with our industry partners in this 
critical program. And while we are making progress, concerns 
remain. And we will no doubt have additional challenges during 
the remaining test program.
    We are collectively committed to meeting those challenges 
head-on. The Navy understands the concerns you and your 
subcommittee have expressed. And we are aggressively working to 
improve performance.
    Chairman Taylor, we are implementing your recommendations 
to break EMALS' cost and performance data from CVN-78 for a 
separate review by Congress.
    Finally, I feel that we have two of the finest program 
managers to lead both the EMALS program and the CVN-78 program 
with us today. And we are taking steps to ensure stability in 
the program's key technical and management teams. The 
department is committed to delivering CVN-78 with EMALS on time 
and on budget.
    Mr. Chairman, with your permission, I would now like to 
provide the committee with a brief presentation on what 
constitutes a catapult launch, as was requested, with the goal 
of touching on some of the major components of the EMALS 
system. And following that, I would like to hand over the 
presentation to Captain Mahr, who will provide greater detail 
on the program as well as the components involved and its 
testing underway.
    Finally, Captain Antonio will explain how EMALS is 
integrated into the Ford class aircraft carrier and how he is 
tracking progress to ensure the proper and timely integration 
of the EMALS system into CVN-78. At the conclusion of our 
presentation, our brief presentations, we will stand ready to 
answer any and all questions, sir.
    [The joint prepared statement of Admiral Architzel, Captain 
Mahr, and Captain Antonio can be found in the Appendix on page 
40.]
    Mr. Taylor. Thank you, Admiral. If you would, please.
    Admiral Architzel. Today's carriers in the fleet, the 
Enterprise and the 10 Nimitz class carriers, the catapult 
launches are accomplished through steam systems. Steam is 
stored, if you will, in wet accumulators. For the stored energy 
in the case of steam catapults is the steam system. And it is 
stored in wet accumulators where you have steam pressure 
available to launch aircraft.
    When we commence a launch sequence, the aircraft is taxied 
to the catapult. A launch bar on the nose gear of the 
aircraft--we generally use all launched nose gear tow today--is 
extended, which locks itself onto the catapult on the above-
deck space on the flight decks itself. Below decks, as you see, 
are ready to go, the airplane is brought to full power. It is 
being held by a trail bar.
    And at that point--if you would hold the video, I do 
appreciate it. Thank you. If I could just for a second explain 
what steam is first--and held in place by a trail bar. Full 
power is applied. And when the deck edge operator touches the 
deck to launch the airplane, steam is released to the pistons 
below deck, which are accelerated and connecting to the 
shuttler, which is on the airplane--accelerate the airplane 
through about a 360-foot power stroke to reach the end speed 
required for that airplane based on its type model series, 
required wind speed, wind over deck and conditions that exist 
on that day.
    Once the airplane is airborne, the shuttle--this catapult 
and the piston below decks is stopped physically mechanically 
by a water brake system. A spear on the front of the piston 
enters the water--physically enters a tank of water about 15 
feet long. And the energy is absorbed in that water brake from 
the launch with the--to stop the piston. That piston is then 
retracted mechanically to set for another launch.
    So, in essence, that is the steam system today. What is 
different about EMALS would be the--well, different and several 
similarities. But the biggest one would start with the concept 
of stored energy now is electromagnetic energy that is stored 
in the system. So power is drawn from the ship's electrical 
distribution system and stored in electrical storage units, of 
which there will be 12 on the Ford class. And that energy is 
available for the launch.
    The aircraft positioning on the catapult is the same as on 
steam catapults. But once you get ready to launch and the deck 
edge operator touches the deck to launch, that stored energy, 
electrical energy is translated through a power conditioning 
system to the linear motors that run the length of the 
catapult, that 360-foot power stroke. And a moving magnetic 
wave is in--is passed through the stators, which is the linear 
motors.
    In between those linear motors is a block of aluminum, 
represented by what I have in my hand. And on top of that, 
which is now the armature, is the shuttle I talked about, which 
attaches to the airplane. And as that moving magnetic wave, 
which is represented by this magnet, passes--this is 
nonferrous, so it is aluminum and a magnet--that magnetic field 
goes along.
    It induces the current into the armature. The armature 
generates its own magnetic field. The magnetic fields are 
latched together, and it pulls down the track. If I put this on 
my desk and just physically move the magnet over the aluminum, 
you can see that I can stop or start this slide of aluminum 
right in my hand. That is the fundamental principle behind what 
is the electromagnetic launch system.
    When the airplane reaches the end of the stroke and that 
energy is provided again to--significant power, more power than 
the steam catapults can provide--when it reaches the end, the 
block of aluminum now, which is the armature, is stopped 
electrically as well. There is no need for water brakes. It is 
stopped electromechanically, if you will, just by changing the 
frequencies induced into that field.
    And then you can retract the shuttle without having to have 
a retraction engine and the mechanics that go with that. So 
there is several advantages to the system that go in with the 
EMALS. And you end up with more uniform acceleration, positive 
speed control throughout the length of the catapult stroke, 
elimination of the labor-intensive systems, far less wear and 
tear on the aircraft and the ship. And that is the goal behind 
the fundamentals behind the EMALS system.
    The video you are going to see now is essentially--if you 
would run that, please--describes what I just went through and 
discussed in terms of understanding what a catapult launch is. 
So thank you.
    [Begin video.]
    The first part is positioning the aircraft on the catapult. 
It is just taxiing forward. And as is the case with any topside 
changes, really insignificant the--that portion of it is the 
same, whether you go from EMALS or steam systems today--in the 
Jet Blast Deflector (JBD) positions itself on the catapult.
    You can see the storage device represented there below with 
the energy storage. Aircraft is on the catapult. The next step 
would be to--and it describes the major subsystems that go with 
launching as I described them--power conditioning, launch 
system, launch control and launch motor, as mentioned.
    The aircraft comes forward, the launch part comes down. JBD 
comes up, applies full power to the airplane. And as then you 
take the moving magnetic field as the induced on the motors, 
the airplane is shot off. And you would then retract and 
continue with the second launch.
    [End video.]
    That is the fundamentals behind the launch sequencing. And 
I will turn it over to Captain Mahr for a description of the 
EMALS system in more detail.

    STATEMENT OF CAPT. RANDY MAHR, USN, PROGRAM MANAGER FOR 
  AIRCRAFT LAUNCHING AND RECOVERY EQUIPMENT (ALRE), U.S. NAVY

    Captain Mahr. Sir, with your permission, I will stand and 
point to the board, sir.
    Mr. Taylor. Please, sir.
    Captain Mahr. Mr. Chairman. (OFF MIKE)
    Mr. Taylor. Thank you, Admiral.
    [The joint prepared statement of Captain Mahr, Admiral 
Architzel, and Captain Antonio can be found in the Appendix on 
page 40.]
    Mr. Taylor. Captain.

  STATEMENT OF CAPT. BRIAN ANTONIO, USN, PROGRAM MANAGER FOR 
              FUTURE AIRCRAFT CARRIERS, U.S. NAVY

    Captain Antonio. Good morning, Chairman Taylor, Ranking 
Member Akin, distinguished members of the subcommittee. Thank 
you for the opportunity for me to talk about the--my exciting 
program. It is certainly a great time to be a part of it.
    Mr. Chairman, as you mentioned in your opening statement--
in your statement, I am very interested in EMALS's development 
as I am, of course, of all the other developmental systems that 
are going onboard CVN-78 and the 21 class. With your 
permission, sir, I also have a couple slides that I would like 
to speak to.
    Mr. Taylor. Please, sir.
    Captain Antonio. First and foremost, ship construction for 
78 is on track. And that construction is being supported by the 
design, including the 3-D product model. This is the first 
aircraft carrier that will be completely designed three 
dimensionally. That 3-D product model is 96 percent complete. 
And the chart that I am showing here is a shot from a 3-D--the 
completion of initial construction drawings for the ship stands 
at 41 percent, about 6,600 of 16,000 construction drawings. And 
those construction drawings are the product of the 3-D product 
model.
    The drawings are completed ahead of construction--so the 
design is complete. The construction drawings are completed 
prior to beginning any of the construction on the ship. And 
those are--in order to take advantage of any--work done in the 
yard.
    The congressional approved advanced construction we 
received--advanced construction authority we received for CVN-
78 allowed us to get a running start into the advanced 
construction for the ship. And, in fact, since the time of 
contract award in September of 2008, we had about 300 of the 
whole units of the total number of about 1,204 structural units 
completed. And for those of you that are not familiar, the 
structural unit is similar to some of the building blocks you 
see depicted in this chart--for a different purpose. But the 
building blocks of the structural unit are depicted there.
    For CVN-78 those units, structural units are built--there 
is some initial outfitting and some load-out of equipment into 
those units, especially large equipment. Some of them are 
combined to form super lifts. Some of them come out of shop as 
first and final and are loaded into the dock to build the ship.
    On CVN-78 there is a total of 497 erectable lifts that will 
go in and make up the Gerald R. Ford. Once in the dock, 
additional outfitting and meeting with other units occurs until 
the ship is capable of being launched from the dock. And then--
make sure the ship itself--the ship works.
    As of today, the total number of 1,204 modules--the 
shipyard has begun work on 571 of those modules and has 
completed 450, or about one-third. About one-third of the ship 
in terms of structural fabrication is complete--and it allows 
us to prove out--that was brought online by the shipbuilder in 
order to support CVN-78. This ship is coming together 
incredibly well. And by any of the--to make a visit to the 
shipyard. I would be more than happy to help arrange for a 
tour. But every time I go down, I see more progress. And it is 
incredibly impressive to see--coming together.
    Our next construction model--that is when we join the first 
units that are placed in the dock--join them together in the 
dry dock. And that is on track for mid-November of 2009, so 
only a few months away--I will get into a little bit about 
EMALS integration--my boss, Rear Admiral McMahon, the--for 
aircraft carriers and I visited Northrop Grumman shipbuilding 
and reviewed the EMALS integration and construction plan with 
the shipbuilder, including being able to don some 3-D glasses 
and virtually walk in some of the places where some of the 
arrangements are ongoing for EMALS----
    From the construction perspective, the key EMALS activity 
that is important to get us to launch, which is currently 
scheduled in 2013, July of 2013, is going to be delivery of the 
motor generator unit. You have heard the admiral mention the 
energy storage system--with the motor generators. These are the 
40-ton units that Captain Mahr showed earlier.
    As I mentioned--and in particular, the first 8 of 12. And 
what I have got shown on this particular chart--and you have it 
on your desk as well--is two--these super lifts, as you see, 
depict the relative location of the first eight. There will be 
four loaded into each of these----
    The ship is built completely different from the way a house 
is built. A house is framed and then items are brought into the 
house--the way a ship is built is they--around the dock or--
early as possible in the construction sequence to do as much 
work as possible because it is the most efficient and least 
costly way to build a ship.
    In the case of the motor generators, these are very large 
pieces of equipment. And to try to load them after we have 
built the whole ship would mean--very inefficient movement 
pattern throughout the ship.
    And next is depicted as far as the load-out of the motor 
generators. What I show here is the orientation of the first 
four EMALS--generators loaded into the super lift that will 
form that wall unit that you saw in the previous chart.
    The shipyard will receive the motor generators, do some 
preparatory work for it, bring it down to the unit, load it 
in--will be loaded out with the equipment that needs to be put 
in--put on. And then it will be loaded into the shop.
    This shows how the--after ship's launch from July 2013 to 
ship delivery in September of 2015, the--delivery of the ship 
is going to be--linear motor subsystem. Installation of that 
linear motor subsystem in the catapult across on the ship and 
then the integrated testing of the entire EMALS system on the 
ship leading to--launching to show that the system works.
    So again, recapsulating--before launch I am looking to the 
motor generator--after ship's launch--ship's loading I am 
looking at delivery of the linear motor subsystem. These are 
the two subsystems for the EMALS production--that have the 
least amount of schedule float, least amount of slack, if you 
will, between the time they are delivered--between the time of 
construction completed to the time of delivery--to the 
shipyard.
    With that said, the current production integrated IMX--
integrated--for EMALS support CVN-78 on time delivery. All 
required--are met. The amount of oversight that is in place--
mentioned the--Office of the Secretary of Defense (OSD) 
oversight--continue to manage and be in place to make sure that 
EMALS is delivered--CVN-78. And we are ready to do that--that 
is all I have.
    [The joint prepared statement of Captain Antonio, Admiral 
Architzel, and Captain Mahr can be found in the Appendix on 
page 40.]
    Mr. Taylor. Thank you, sir.
    We are going to go--we are very fortunate to have a 
physicist, an engineer, a retired Navy captain, and you and me. 
So we are going to turn to our engineer to start the line of 
questioning.
    Mr. Akin. Thank you, Mr. Chairman.
    Captain, this whole area of project management has been 
something that our committee has been paying attention to. We 
have made some mistakes in other kinds of projects. One of the 
things that concerned us particularly was changing project 
managers all the way down the line. You change your horse not 
once in a battle, but four or five times. And that doesn't work 
very well.
    And partly at the insistence of this committee, but perhaps 
for other people, too, you were the unfortunate person that was 
singled out because you have made a good reputation for 
yourself to be chained to this project for a certain period of 
time. And I think the first and the most important principle 
that I am curious about is do you feel you have the authority 
to basically manage this project and be in control of that? 
Obviously, a lot of that time schedule is not in your control. 
There is other vendors and different people.
    But our concern is that there is one person that we are 
looking at that we are counting on, particularly to bring EMALS 
in. But I gather your responsibility is for the entire ship. 
First of all, is your responsibility the ship?
    Captain Antonio. Yes, sir. My particular role is the CVN-78 
program manager. My responsibility is for the entire ship 
working with the shipbuilder, Northrop Grumman shipbuilding 
down in Newport News. Captain Mahr is the EMALS program manager 
responsible for----
    Mr. Akin. So you have the whole ship, and Captain Mahr has 
got specifically the EMALS? Okay. And you are going to be 
around long enough to stay on top of this? Okay.
    Because that is our concern. We have seen other places 
where everything is fine, everything is fine, everything is--we 
are double over budget and two years late or whatever it is. 
That is the kind of thing that we can't afford on this project.
    Now, the EMALS itself, I think, is what the subject of our 
hearing is. And it is particularly because you are saying it is 
critical path to bring the project on time.
    First of all, you have got something that you called 
storage units which are motor generators. How do you consider a 
motor generator to be a storage unit?
    Captain Mahr. Sir, through the rotation of the motor 
generator maintains roughly 4,000 revolutions per minute (RPM). 
That is holding the electric kinetic energy, if you will.
    Mr. Akin. So you get big flywheels in these suckers? Is 
that what you are saying?
    Captain Mahr. It is an electric flywheel, but, yes, sir. It 
is a very good analogy.
    Mr. Akin. But where is the electric energy stored?
    Captain Mahr. It is in the generator itself. So the 
generator is holding the energy. It is maintaining 4,000 RPM. 
When a command discharge, the energy is commanded out of the 
motor--or drawn out of that generator.
    Mr. Akin. Okay. I have just been told it is a high-mass 
rotor. In other words, it is like a flywheel?
    Captain Mahr. Yes, sir. It is----
    Mr. Akin. When you pull the trigger to launch, the motor 
generator loses its velocity?
    Captain Mahr. Yes, sir. It draws down some of that energy 
and immediately starts trying to command it back up to speed. 
So as soon as I command launch, we are trying to drive energy 
back in to keep it at the max RPM.
    Mr. Akin. Okay. Now, the electrical energy that you are 
getting originally is coming from the ship's generators?
    Captain Mahr. Yes, sir.
    Mr. Akin. And that is in the form of alternating current 
(AC) or direct current (DC) ?
    Captain Mahr. AC, sir.
    Mr. Akin. AC power? It is going to a motor, which is an AC 
motor.
    Captain Mahr. Yes, sir.
    Mr. Akin. Which is then going to go to a generator, which 
is a DC generator? Is it a modified AC?
    Captain Mahr. You are talking about the motor generator 
itself?
    Mr. Akin. Right. The motor is an AC motor----
    Captain Mahr. Yes, sir. We transmit the energy via DC for 
lower line law.
    Mr. Akin. Okay, so you have AC power coming from the ship's 
generator.
    Captain Mahr. (OFF MIKE)
    Mr. Akin. It goes to the motor.
    Captain Mahr. Yes, sir.
    Mr. Akin. The motor is an AC motor. It is spinning at 4,000 
RPM.
    Captain Mahr. Yes, sir.
    Mr. Akin. Driving a generator, which is a DC generator.
    Captain Mahr. Yes, sir.
    Mr. Akin. The DC generator then is connected through a 
series of cables to the actual track.
    Captain Mahr. Yes, sir.
    Mr. Akin. And you call them motors, which are really linear 
motors on each side of the aluminum block is going to run down 
these things?
    Captain Mahr. Yes, sir.
    Mr. Akin. Okay. Now, when the process of putting this 
project together there is certain--obviously, there is new 
technology. The whole thing is new. And so, whenever you do 
something new, you are worried about bugs. So how much have you 
actually tested of this entire system? Have you actually put 
these motor generator full scale together and taken aluminum 
block and done this? Or is this all being done just modeled? Or 
do we actually have one that we have built?
    Captain Mahr. Yes, sir. In the program definition and risk 
reduction (PDRR) phase, the competitive phase where we looked 
at both competitors we built a full-scale, half-length 
prototype, which was--which included----
    Mr. Akin. A full-scale, half-length?
    Captain Mahr. Full scale, but half-length.
    Mr. Akin. Okay, so----
    Captain Mahr. That went to the catapult track.
    Mr. Akin. Okay.
    Captain Mahr. And that was built up at----
    Mr. Akin. So the amount of energy that you are transmitting 
and the amount of force and everything is full scale? It is 
just it is not running as long as the--okay.
    Captain Mahr. Yes, sir. We demonstrated the ability to 
launch at bedload, which is a non-manned--it is an unmanned 
aerial aircraft, but it is something on wheels up to the speed 
of 150.
    Mr. Akin. Okay. And so, that is going through. Were there 
any surprises and things we learned in that, or not 
particularly?
    Captain Mahr. From the physics point of view, no, sir. From 
the engineering point of view, we did learn some things. We 
took what we learned there and put it into the system we are 
now developing. So from 2004 until now it has been maturing 
that system into a ship-ready system. And we have----
    Mr. Akin. Well, there have been some problems on it. Is 
that right?
    Captain Mahr. Yes, sir.
    Mr. Akin. What exactly were the problems? It is much more 
expensive now. General Atomics did us a favor and charged a 
whole lot more, right, because some things happened that made 
it more expensive?
    Captain Mahr. Yes, sir.
    Mr. Akin. Where did we get off the track to start with?
    Captain Mahr. From an engineering perspective, we have 
found a lot of things. We have tested the--we have completed 
one main phase of test, and we are in the process of finishing 
the next two main phases of test. The motor generator, as we 
have been talking about----
    Mr. Akin. So the first test was you took motor generators, 
the right size, and you demonstrated it half-length?
    Captain Mahr. Yes, sir.
    Mr. Akin. Okay. And that is done. Was that the first phase?
    Captain Mahr. That was done in 2004 in the--under the 
current contract for development, we took--we built a full 
motor generator that we intended the production representative 
of what we put on the ship. We put that in Tupelo, Mississippi, 
at General Atomics plant. And we ran that over a simulated 
2,000-year output life.
    So it is what we call 10,000 launch cycles on that. And we 
completed that last September. And we proved that the motor 
generator itself is capable of putting out the appropriate 
amount of power over 10,000 times.
    That same motor generator then we went into what we call--
that was high-cycle test, phase one. We are now in high-cycle 
test, phase two. We are not quite 80 percent through that. For 
the same motor generator I have accumulated about another 
10,000 cycles on that one. And this time we have taken the 
motor generator. We have added all of the other components up 
to, but not including the linear motor. And so, I am putting 
the electronic components and running power through those.
    In those two tests we found out things about the motor 
generator. We found that the vent--it vented oil mist into the 
air. And so, we had to put a demister on it. We found out that 
there were some oil leaks that we had to deal with. From a 
performance perspective, the only significant thing we found 
was that the motor generator shaft vibrated. It was the design 
point that we thought we would--or the operating point we had 
designed for was to have that--have a stable operating 
condition of 4,200 RPM.
    We encountered there are critical points--as you are aware, 
there is critical points in any rotor where you will see some 
vibration. We wound up seeing one above 4,200 RPM, and then we 
started seeing some vibration near 4,200 RPM.
    We identified the root cause of that to be associated with 
the bearing cooling where the main shaft bearing. It is an 
overhung mass on the bearing. It is cantilevered out. We 
changed the bearing to what we call a fore load bearing to 
provide additional cooling oil over the shaft. And the 
vibration was taken care of.
    We have now retrofitted the four motor generators that are 
built and installed up in Lakehurst, New Jersey. Three of those 
are currently retrofitted. The last one will be retrofitted 
shortly. And that will be the configuration that we will take 
to the ship.
    Mr. Akin. Is that what cost us the extra money, was a 
different bearing design and different cooling in the bearing?
    Captain Mahr. That did increase the cost of the unit a 
little bit. But it wasn't the cost--the cause of the overrun 
that got us to where we are today. The cause of the overrun 
where we got to today, sir, is--do you want me to go down that?
    Mr. Akin. Just quickly.
    Captain Mahr. Okay. Real quickly, we planned a test 
schedule that was aggressive and optimistic. We were unable to 
execute that test schedule. The cost of materials went up to 
build some of the equipment. So that cost us.
    Mr. Akin. Was it on the motor generator? Is that what was--
--
    Captain Mahr. Part of it was on the motor generator. But we 
use a fair amount of raw materials throughout the unit, so they 
spread that across everything. And then the labor. We 
identified that General Atomics and their--specifically and 
their industry partners needed about another 80 work years of 
engineering staffing. So we had to plus that up as well as we 
found the same thing on the--Navy needed additional----
    Mr. Akin. So what are you concerned about now?
    Captain Mahr. What keeps me awake at night, that kind of a 
question?
    Mr. Akin. Yes, how do you make sure we are staying on 
schedule? What are the key things you are really watching? And 
do you have the authority that you need to make sure--do you 
know this is your project? And do you feel like you own this 
thing?
    Captain Mahr. Yes, sir.
    Mr. Akin. And you going to be with it?
    Captain Mahr. I have full responsibility for the EMALS 
system.
    Mr. Akin. Okay.
    Captain Mahr. If you are looking for that one belly button, 
that belly button is me.
    Mr. Taylor. If the gentleman would yield?
    Mr. Akin. I yield.
    Mr. Taylor. No, in this year's bill I would remind you that 
we directed the secretary of the Navy to appoint someone--we 
didn't name the officer--to take this from present through 
testing. We encouraged him to have a six-month transition where 
someone would right seat, left seat. And then we directed him 
to have a second officer in charge from testing through 
delivery. So----
    Mr. Akin. Great. I just wanted to make sure because we have 
been in hearings before. And somebody is theoretically 
responsible, but it seemed like they weren't really. We just 
want to make sure that you really feel like you have got--you 
are on top of this and that you are going to be keeping an eye 
on it.
    Captain Mahr. Sir, I feel absolutely responsible for EMALS 
delivery and development.
    Mr. Akin. And you know where your critical paths and pieces 
are all the way down the line?
    Captain Mahr. Yes, sir.
    Mr. Akin. Okay. So then what keeps you awake at night then? 
I don't want to run too long, but----
    Captain Mahr. Yes, sir. The critical path right now to 
system function administration, which is the major phase of 
testing we do next where we start launching debt loads up at 
Lakehurst, is getting those linear motors installed in the 
trough at Lakehurst. The motor support structure is a key to 
that. And it is--forward structure block 29 that will be 
delivered to--from the manufacturer precision custom components 
to Tupelo, Mississippi, in September. And then we have to 
outfit it with the linear motors and ship that up to----
    Mr. Akin. Let me try and get a mental picture then. What I 
am really seeing is you have got--basically got these motor 
generators, which are great, big hummers. And you have got to 
make sure those are working. You are pretty comfortable now the 
design on that is working okay.
    Captain Mahr. Yes, sir, no problem.
    Mr. Akin. And you got some solid state controls that are 
basically controlling the electricity that is the DC power that 
is going to go from those to the motor in the launch system. 
Are you pretty comfortable with that? Is that straightforward?
    Captain Mahr. Yes, sir, we are operating the control system 
right now up at Lakehurst.
    Mr. Akin. Okay. Then you have got the motors, which is 
basically, I assume, big coils that run the entire length of 
the track. Is that correct?
    Captain Mahr. Yes, sir. They are more of an iron bar magnet 
with coils of wire around it. But yes.
    Mr. Akin. Yes, that is what I mean, coils with an iron. And 
that is creating a magnetic field on both sides of the aluminum 
plate?
    Captain Mahr. Yes, sir.
    Mr. Akin. Okay. Then the aluminum plate is going to slide 
down this track of some kind, right?
    Captain Mahr. Yes, sir.
    Mr. Akin. Now, what is the tricky part of that?
    Captain Mahr. The tricky part of making it work will be 
controlling it. It is knowing where you are all the way along 
the track so you can keep the force pulling it forward and you 
don't retard the motion. And that will be part of the control 
system. We have showed it works in the PDRR. We have to build 
the catapult up at Lakehurst to prove it. There is 
fundamentally no challenge that we haven't encountered before 
that we--it will be a communication issue. It will be a closed 
look control issue. But that is----
    Mr. Akin. Now, these coils that are around this--the iron 
core--are there all these things separate so that you basically 
are energizing a whole series of them?
    Captain Mahr. Yes, sir, I have in each--I have--four-foot 
section. In each four-foot section there are four individual 
motors. And then I have 29 of the 12-foot sections.
    Mr. Akin. Okay.
    Captain Mahr. So in each----
    Mr. Akin. And you install that after the carrier is pretty 
much built? Those come straight down from the deck?
    Captain Mahr. The catapult pieces will come in from the 
deck, yes, sir.
    Mr. Akin. Okay. So that is pretty straightforward. As long 
as you have got that working, you--that is top down kind of 
thing, whereas the motor generators, that is built way down. 
And that is what you have got to make sure that is in?
    Captain Mahr. The motor generator is the earliest component 
after delivery of the ship.
    Mr. Akin. And then the aluminum plate piece--is that also a 
top down kind of installation?
    Captain Mahr. Yes, sir. Yes, sir.
    Mr. Akin. So you are not as worried about that from a 
critical path point of view, other than the fact it has to be 
ready when you want the ship ready?
    Captain Mahr. Yes, sir.
    Mr. Akin. Okay. Now, how about getting the DC power from 
your motor generators to those motors? Is that any particular 
problem from a craft point of view or the kind of insulation 
you need or cables? Or is that very straightforward?
    Captain Mahr. I am hesitant about saying anything is very 
straightforward. We are putting together a very complicated 
system. But the technology within transformer rectifier--
transformer rectifier has been around for a long time, so we 
understand what that is. We are talking on a fairly large 
scale. So there are some complexities there.
    When we look at the inverters and the rectifiers and 
control circuits that we have to do, the process of tuning them 
is understood. We have to take our time and go through it. In 
fact, that is what we are doing right now down in Tupelo with 
one of the circuits. We are doing that control.
    If I can get back to the linear motors for a second. I 
would be remiss if I didn't talk about--the challenge we are 
facing right now with the linear motors is keeping the interior 
of the motor drying so that I don't wind up with any short 
circuits in there.
    The--which I didn't mention earlier. But it is up at 
Lakehurst, New Jersey. They are spraying it with a sodium 
dioxide fog as well as a salt fog and raining water onto it. We 
did find some moisture intrusion. We believe we know three 
likely ways that that is getting into the motor.
    One of them is in the test motor only. It won't exist in 
production. The other two are where the cables connect into 
each of the internal stators. And then we believe there may be 
some coming in through some location.
    Mr. Akin. What voltage are you running DC when you hit that 
thing with full power?
    Captain Mahr. I am sorry, sir. I can't remember that number 
off the top of my head. About 10,000 amps.
    Mr. Akin. But generally, you are talking a very high 
voltage or--over 1,000?
    Captain Mahr. It is roughly in the neighborhood of 1,000 
volts and 10,000 max peak on each side.
    Mr. Akin. So salt water doesn't work very well with that 
kind of voltage?
    Captain Mahr. No, sir. We have a floating ground built 
inside that we are still operating it--we are operating the 
motor wet in haul because we believe it is safe to operate. We 
want to get the motor dry when we go to the ship. So we will 
work our way through that one.
    Mr. Akin. Yes.
    Thank you very much, Mr. Chairman and for your forbearance.
    Mr. Taylor. Thank you, Mr. Ranking Member, for an excellent 
line of questioning.
    We now turn to Captain Massa.
    Mr. Massa. Thank you, Mr. Chairman. I appreciate the 
opportunity to ask a few questions.
    And, First Admiral and Captain, personally thank you for 
your incredible focus on this very important issue and, 
frankly, for the service of the thousands of men and women who 
you represent here today whose life's passions are in 
maintaining and building our Navy.
    I fear I am at somewhat of a loss in that I know a couple 
of you from many, many years ago. But I remind all that I am at 
my soul just a country guy from upstate New York.
    You obviously know a great deal about the nuts and bolts of 
this system. And the Navy has focused incredible resources on 
this.
    Vice Admiral Architzel, a very blunt question, if I may. 
What if this does not work?
    Admiral Architzel. The technology now is critical to the 
ship. So let me answer the question by saying the Navy 
recognizes that first and foremost. In the past year, we have 
done a number of steps--over the past several years--a number 
of steps as outlined in my written testimony. But I want to 
take a moment to--specifically asking you to use.
    You started with a program assessment review, which began 
when we first knew we potentially could have some issues then 
with the system and where we were and where we thought we would 
be, both in terms of cost and schedule and technical issues 
that were going to come up. That program assessment review done 
with accommodation of industry and--pointed to the fact that we 
needed to increase both systems engineering, which is what 
Captain Mahr spoke to, as well as our government oversight.
    There were changes made in the General Atomics (G.A.) team, 
General Conger's team. There were changes made within the 
program management team. Coming out of those program assessment 
review, it took a while to really analyze what recommendations 
were and then incorporate those recommendations.
    Many of those recommendations, Ranking Member Akin, were 
what drove costs into the program because to take those 
recommendations and implement them forward, drove manpower into 
the programs and that brings with it attendant costs. And we 
also identified some areas that needed corrected. And we 
corrected them.
    Following that, the Under Secretary of Defense, then Mr. 
Young, directed that a DST, or defense support team, review be 
conducted of the EMALS system. That was done. The findings of 
that in summary were basically that we--recommendation 
concurrence to proceed with this system, but pointed to the 
fact that we needed to do some additional risk mitigation, 
which was also incorporated going forward.
    As we continue to move forward, we were not satisfied with 
where the program was headed, so we initiated a three-star 
level ex-com review, which is executive committee review, which 
was made up of members of NAFC, the NAFC system commander 
specifically, their system commander and representatives from 
the Under Secretary of Defense for Acquisition, Technology, and 
Logistics (USD (AT&L)), a--myself as the chair. And we went to 
review with--take a round turn on the program again with the 
program managers, only this time to answer four basic 
questions: were the requirements met, what were our 
alternatives, what would those alternatives be, did we have the 
right program management in place to proceed with this, both in 
a government and in the industry team and what was our schedule 
commitment and what was our cost, where would we stand with--
unit costs and average unit costs.
    We took the findings of that committee to a series of 
briefings which culminated with the CNO, the Chief of Naval 
Operations to make a decision on whether to stay with EMALS or 
to look at a different ship. CNO took the information, made a 
decision. That decision made is now the path we are on, is the 
path to come forward with the EMALS system.
    So what I will tell you is we are committed to the EMALS 
system.
    Mr. Massa. Admiral? Admiral?
    Admiral Architzel [continuing]. EMALS, then we--it is not--
we are past that.
    Mr. Massa. Thank you. What happens if it doesn't work?
    Admiral Architzel. Sir, I have every expectation this EMALS 
system will, in fact, work.
    Mr. Massa. I don't want to appear insistent. Indulge me and 
allow me, please, to ask the question one more time. What 
happens if this does not work?
    Admiral Architzel. With all candor, sir, the--if that 
system were not to work--it is a system that we are confident 
will work. And we are going to make every effort we have to 
make sure it does work.
    Mr. Massa. I am a little rusty on engineering. And you guys 
are very much active experts on this. Help me a little bit for 
just a few moments.
    In linear induction motors, by my calculations, yours has a 
348-foot long throw length. As the stator which is stationary 
imparts a large electromagnetic field. And we are talking in 
something here of 10,000 amps amplified through a pipe of 1,000 
volts. So your measuring goes in somewhere in the mega ranges.
    As that electromagnetic pulse precedes the shuttle during 
those 348 feet, one would suppose there is a peak spike of 
initiation and a peak spike on braking. Has anyone measured 
that in real-life terms? For any of you gentlemen.
    Captain Mahr. Yes, sir, during the PDRR phase that we 
conducted up at Lakehurst we had on the front of the dead loads 
during the launch--we had an M.I. measuring circuit so we----
    Mr. Massa. Is that information in two- or three-dimensional 
graphic format available in an unclassified manner that I could 
be briefed on?
    Captain Mahr. Yes, sir.
    [The information referred to is classified and retained in 
the committee files.]
    Mr. Massa. I would appreciate that. I would also like to 
get some understanding of how specifically in Joint Direct 
Attack Munitions (JDAMs) and other exceptionally sensitive 
weaponized systems that electromagnetic interference (EMI) and 
electromagnetic pulse (EMP) is going to be grounded and 
mitigated, even if it is so much as to precede the airplane by 
nine feet, which by my calculations is where that pulse will 
spike in front of the nose of the aircraft. The A/NSP-118 on 
the F/A-18 is very sensitive, as you know. Any--to the point 
where we during weapons handling on any conventional carrier 
today shut down all electromagnetic interferences forward of 
the island. Now we are introducing a tremendously new variable.
    Is it a true statement--well, ask me this. Has this ever 
been done outside of your half-length, full-power tests in any 
navy anywhere?
    Captain Mahr. If you just clarify, sir. Has what been done?
    Mr. Massa. An all system been used?
    Captain Mahr. No, sir.
    Mr. Massa. So this is the first time?
    Captain Mahr. Yes, sir.
    Mr. Massa. And we are at the cutting edge of the 
technology?
    Captain Mahr. Yes, sir.
    Mr. Massa. And if it works, we are it. We have saved 30 
percent of the interior volume of the hull, a 20 percent 
reduction in crew and associated lifetime costs. These are all 
figures that are very, very attractive. I will state for the 
record, gentlemen, first I was against the Navy shifting to the 
construction of the Ford class and taking such a large leap of 
technology simultaneously new propulsion systems, weapons 
systems, electrical distribution systems, flight deck layouts, 
et cetera. I think it is a bridge too far with exceptionally 
high risk and very little mitigation capabilities.
    Secondly and for the record, I am exceptionally concerned 
about the inability to extract an answer to the simple question 
of, ``What happens if it does not work.'' The reality is, 
gentlemen, we will have just bought the world's largest 
helicopter carrier.
    And that will, in fact, so totally impact the future of the 
Navy as to the reality that my limited imagination can't 
express the overall results. This committee and myself will do 
anything to help. But I am very, very worried about this leap 
in technology. And I would like to have that reflected in the 
record.
    Thank you, Mr. Chairman.
    Mr. Taylor. Thank you, Captain Massa, for an excellent line 
of questioning.
    For the record, Captain, Admiral, I would like to know 
which of the weapons systems that the captain brought to your 
attention have already been tested within the electromagnetic 
pulse of these--this system.
    Captain Mahr. Sir, what the Navy--the design of the weapons 
accounted for pulses of this frequency. We are in the process--
the Navy has never had a source of energy in this frequency 
before. So we are now in the process of working with naval air 
warfare center weapons division, take those in and develop a--
go through the tests----
    Mr. Taylor. When will those tests be conducted, and when do 
you expect them to be completed?
    Captain Mahr. They will be happening over the next year, 
sir. So we will have periodic--we will take several weapons in 
through the test----
    Mr. Taylor. Yes, I would hope that you would stay in very 
close touch with the committee----
    Captain Mahr. Yes, sir.
    Mr. Taylor [continuing]. With the results of that.
    Mr. Wittman, were you here at the gavel? We turn to the 
gentleman from Tidewater area, Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Admiral Architzel, Captain Mahr, Captain Antonio, thank you 
so much for joining us. I want to start out and just make a 
comment. You know, we are kind of pushing the envelope. We are 
during this span of time going to go from 11 to 10 carriers as 
we phase in the Ford and phase out the Enterprise.
    It kind of puts us in a position where if there are 
challenges out there, we are going to be pushed to the max. I 
am confident in the Navy's assurance that strategically we will 
not let our guard down during that period of time. But it is 
even more incumbent to make sure that systems such as EMALS and 
the new systems on the Ford class carrier are functional and 
that we stay on schedule. And obviously scheduling issues there 
create larger problems for us down the road.
    I wanted to learn a little about the decision making 
process and where we are. I understand about 18 months ago that 
General Atomics put in place a new management and oversight 
team. I wanted to learn a little bit about why that was 
necessary and if we believe that the current problems that we 
are--well, the problems that we had experienced there were 
simply an issue of poor management or if there were other 
issues there along the lines that have led to some of the 
hiccups in the EMALS program.
    Admiral Architzel, I will direct the question to you.
    Admiral Architzel. I would like to begin, and I will send 
it back over to Captain Mahr. But to directly address your 
question, the program assessment review was specifically 
designed to uncover what were our areas of concern and focused 
on both the government and the industry side.
    Mr. Wittman. Okay.
    Admiral Architzel. On the industry side we found that 
General Atomics did not have the systems engineering in place, 
personnel in place to really bring this from the development 
stage into production. And working with General Atomics, we 
agreed they have since hired a team in place to do this. We are 
confident they have the right people in place to make that 
happen.
    And concurrent with that we also looked at the Navy program 
offices, both program offices here. We looked at both Naval Sea 
Systems Command (NAVSEA)--were they working together 
technically enough to address many of the things we were 
starting to discuss today about risk and were--could we--our 
assurance to have that done.
    Changes were made in our government structure within how we 
go about doing technically to do the things. And a clear 
articulation of who was responsible, which goes back to the 
chairman's point about Captain Mahr and Captain Antonio, 
specifically Mahr and EMALS. I think I would like to have 
Captain Mahr continue the answer.
    Captain Mahr. Sir, the brief answer to your question is 
yes, the changes were required. And, yes, they have been 
effective. In this case with management, it is always hard to 
find the exact thing that didn't go well. But all together I 
would say neither the Navy nor General Atomics appropriately 
staffed where for the level of technology production we were 
going to have to deliver. As a result of that, we got behind in 
our development and design such that the critical design review 
was pushed out by several months and then broken up into 
incremental phases.
    That is not necessarily bad by itself. In fact, it allowed 
us to get a good look at each of the systems. But it was an 
indicator we had a problem. General Atomics stepped forward, 
brought in the appropriate level of management and as noted 
earlier, have continued to hire additional experienced managers 
and engineers from well-represented major industry 
representatives.
    And then on the Navy side, we brought in a significant 
number of people and kept up over 50 work-years in Naval Air 
Systems Command (NAVAIR) alone and about the same in----
    Admiral Architzel. I think there is another piece that 
Captain Antonio should answer, sir, also that goes to concerns 
about ship integration and making sure that this system and the 
ship are ready for that as well. Because there were changes 
made on that side as well.
    Captain Antonio. Yes, sir. The Production Assessment Review 
(PAR) recommended--PAR recommendations were not just for 
General Atomics or just for the Navy. In fact, there were 
changes made at the shipbuilder as well. Northrop Grumman 
implemented a--or put in place a specific project manager whose 
sole function is EMALS integration. And so, we have an effort 
funded through the shipbuilder to make sure that the 
communication path is there, that they are a part of our 
technical governance and part of our overall management of the 
system through the development cycle in SDD so that those 
lessons learned can be imported over into the ship.
    An example of that is as the initial pieces of the linear 
motor structure are being put in the trough in Lakehurst, we 
had Northrop Grumman shipbuilder production folks onsite 
watching how that install was going, making recommendations for 
how things ought to happen on the ship.
    So all of this was a part of the PAR findings that we 
needed, different leadership and organization and different 
design integration leading to production on the ship. So we 
have addressed those.
    Mr. Wittman. Thank you, Mr. Chairman.
    Mr. Taylor. Thank you, Mr. Wittman.
    Admiral Architzel. Mr. Chairman, could I just----
    Mr. Taylor. Yes, sir, Admiral.
    Admiral Architzel [continuing]. Correct one--I feel like we 
should correct one thing, or at least I should. When we talked 
about this technology all concerns--this is high-energy 
electrical systems. And we do have a technology that is far 
advanced. It was a competition between the Northrop Grumman 
design and the General Atomics design.
    The graham ring technology of the General Atomics design 
was chosen, which is a core iron hull and a copper, well, u-
shaped outer coating. And then that is wrapped with litz wire. 
And the current that goes through that linear motor is AC 
current, three-phase AC that goes down that motor.
    So I think we had said some things about DC, and I want to 
make sure we don't have something that is misinterpreted here. 
So just a technical aspect that when you end up with the linear 
motor, you end up through the power conversion systems at the 
linear motors you are sending three-phase AC through those 
wrapped windings, which is what gives you that traveling 
magnetic wave down the linear motor itself.
    The second point was the AC system from the ship is 13 AVA 
plus--wire, which sends 800 volts DC into the storage system 
generator. It is just a couple things that were said that were 
just to clarify.
    Mr. Akin. You have thoroughly confused me now. Let us start 
at the beginning. Okay? You start with the ship's generators. 
They are generating what?
    Admiral Architzel. Thirteen eight K AC power.
    Mr. Akin. AC power?
    Admiral Architzel. Yes, sir.
    Mr. Akin. That runs to the motor generator?
    Admiral Architzel. Runs through a transformer rectifier 
that comes up and rectifies it to 800 volts DC. And I will 
let----
    Mr. Akin. So it is converted before it even gets to the 
motor generator to DC? It is a little more complicated than I 
thought.
    Admiral Architzel. Yes, sir.
    Mr. Akin. Then you have got a DC motor spinning at 4,200 
RPM.
    Captain Mahr. There is an exciter on one end. And that is 
where you get the electrical acceleration from. So we run it 
into the exciter and that is what actually spins up the 
generator on the other side.
    Mr. Akin. Okay, so the motor is running from a converted AC 
to a DC. So it is a DC motor.
    Captain Mahr. Yes, sir.
    Mr. Akin. It is running. It is spinning a generator, which 
is generating, what, DC power?
    Captain Mahr. AC.
    Mr. Akin. AC power?
    Captain Mahr. Yes, sir.
    Mr. Akin. Okay. It is generating AC power, which is a 
three-phase AC, which is then going up to the actual static 
motors that are running along the launch?
    Captain Mahr. In the middle for the transmission lines we 
transmit it as DC.
    Mr. Akin. You transmit it as DC? So--solid state we can 
flip it back whichever way we want at our convenience?
    Captain Mahr. Yes, sir.
    Mr. Akin. Okay.
    Admiral Architzel. And the reason you do that just for the 
length of transmission on that.
    Captain Mahr. You want more losses in the long line.
    Mr. Akin. I would love to ask another question, but I think 
I want to----
    Mr. Taylor. Mr. Chairman, you are--I mean, Mr. Ranking 
Member, have at it.
    Mr. Akin. Well, one other thing. If you have got a large 
pulse of magnetic force near the aircraft and you have already 
tested this thing at half-length, have you ever stuck an F/A-
18, just sit it there, not to launch it, but just sit it there 
and let that power go across it and see what had happened? The 
reason I ask that years ago I was in charge of maintenance at a 
steel mill. And we put some transformers in to power the 
electric arc. For instance, they had carbon rods about the size 
of telephone poles that you drop into--three of them that you 
drop into scrap. And it makes lightening. And it uses a fair 
amount of electricity.
    Well, we had at a time where those transformers, there 
would be eddy currents that would just vaporize a two or three-
inch bolt that, you know, that you didn't know where they were 
going to go. So there is--when you start dealing with 
tremendously high power kinds of things, that can have some 
influence.
    You have got a magnetic field anyplace you have got a wire 
that is inducing. So I guess my question is can you stick an F/
A-18 there with its radar and all that kind of stuff and just 
fire this thing off a few times and check? Because it would be 
nice if we could launch them. It would be better if we could 
launch them and have the thing working when it gets up in the 
air, too, you know.
    Captain Mahr. Yes, sir. In fact, that specific test is 
planned as soon as we get the Lakehurst catapult operating. We 
will sit an F/A-18 astride the trough, and we will move the 
armature underneath it to see what the affects are. It will 
be--airplanes, but we ought to be able to get a lot of good 
data off of that. I don't expect there will be any problems.
    Mr. Taylor. I apologize for interrupting again. The 
timeline on that is what? On that test?
    Captain Mahr. I will have to get back to you on the exact 
date, sir. I don't know that date off the top of my head.
    Mr. Akin. We are talking a year or two away? Or----
    Captain Mahr. No, next year, sir.
    Mr. Akin. Next year?
    Captain Mahr. Yes, sir.
    Mr. Akin. Okay.
    Captain Mahr. It will be during our system function 
demonstration.
    Mr. Akin. On paper what do we think from an engineering 
point of view? Will it be okay?
    Captain Mahr. Yes, sir. NAVAIR looked at that, and we--the 
specific engineers for our EMI team have worked at it and it 
does not seem an issue.
    Mr. Akin. Okay.
    Admiral Architzel. Ranking Member Akin, there is 
significant data that--and we will get back with Representative 
Massa and his request. I have done this before. We will come 
back again to him to clarify.
    In the production development and risk reduction phase, 
which is the PDRR--was an acronym used, so I want to put that 
one--that was the initial--in that phase, we had antennas 
actually on the sleds that were pulled down to measure these 
fields. And the fields were measured, both the magnetic fields 
around and in the area of the--that data exists, sir.
    And so, what the plan that Captain Mahr is talking about is 
to further go through both looking at--although we don't expect 
there to be Hazards of Electromagnetic Radiation to Ordnance 
(HERO) or Hazards of Electromagnetic Radiation to Fuel (HERF) 
or Hazards of Electromagnetic Radiation to Personnel (HERP). 
Those are electromagnetic magnetic interference for ordnance or 
fuel or personnel. That is in our test plan. And we are going 
to continue to look at that. So it is not like we are adding 
that to the plan. That plan exists. It has been throughout the 
program.
    Captain Mahr. And we have been doing component-level 
testing down at Tupelo, Mississippi, on the actuated power 
trains. We have had antennas down there gathering the M.I. 
data. We have not seen anything abnormal outside of what we----
    Mr. Akin. Thank you.
    Thank you, Mr. Chairman.
    Mr. Taylor. Thank you, Ranking Member.
    We now want to recognize the previous chairman of this 
committee, a physicist and our resident expert on 
electromagnetic pulse, Mr. Bartlett.
    Mr. Bartlett. Thank you very much. We have had a really 
excellent discussion of the technical problems that resulted in 
the cost overruns and the delays. But I would like to spend 
just a couple moments of reflecting on how we got here and 
lessons learned from that.
    In a previous life I was privileged to work for the Navy 
and then for a captive Navy contractor, the Johns Hopkins 
University Applied Physics Lab where we wrote requests for 
proposals (RFPs). And then I moved to the industrial world. I 
worked for eight years in IBM Federal Systems Division where we 
responded to the kinds of RFPs that I helped write when I was 
working for the Navy and for the Johns Hopkins University 
Applied Physics Laboratory.
    And there is an interesting and unavoidable phenomenon. It 
is characterized as optimistic assumptions of cost and 
development by the staff who put together a little briefing for 
us here. When I wrote for the IBM Corporation, that was kind of 
characterized by the biggest and best liar won. The person can 
be the best presenter for a very overly optimistic program of 
cost and assumptions is going to win the contract.
    So they wouldn't let us do that at IBM. We couldn't lie. 
And so, we operated at a disadvantage in getting contracts. And 
this is all not intentional. Obviously, the people working on 
this are very optimistic about it, very confident in their 
abilities and so forth.
    But the Navy had in one sector of their development a real 
advantage. And that was the applied physics lab. And they have 
shepherded through many, many years now the fleet ballistic 
missile system development through all of the fleet ballistic 
missiles. And they were looking over the shoulder of people 
like you in the Navy who are running the program, advising them 
as to whether or not this proposal from industry was likely to 
work.
    And the applied physics lab is a unique organization. I 
think it is the only one in the country that will not compete 
with industry. And since it will not compete with industry, 
industry will share with it its deepest, darkest proprietary 
secrets so that the applied physics lab can be in a position to 
advise the Navy in what is likely to work and what will not 
work because the contractor is always going to be overly 
optimistic about what he can do and about how quickly he can do 
it and how low the costs will be.
    Since we don't have in other parts of the Navy that kind of 
a--and there are 3,800 people there, about half of them really 
professional people. We don't have that anywhere else in the 
Navy. What can we do so that--you know, if you came into this 
program after the contract was let, you were handed a dog that 
couldn't hunt. And, you know, what do we do to avoid that in 
the future if we don't have other APLs to help us in other 
parts of the--of our procurement in the Navy?
    Admiral Architzel. Well, I think the--we absolutely do 
value the work of APL and those laboratories and technology 
assets we do have to apply to this. And going down in this 
program, as we mentioned, some of the--one of the tasks was on 
the defense support team, which included industry 
representatives and also laboratory expertise, as you were 
mentioning, to go back and tell us did we have this right as 
well.
    So Representative Bartlett, I just think I agree with you 
that we need those--we need that both within our laboratories 
as well as within our capability to know because that is where 
the expertise resides. And so, I don't argue for a minute that 
we need that kind of ability to call on because we need it to 
know the experts in the field, if you will.
    Mr. Bartlett. But neither you nor we have the depth of 
experience and knowledge that an institution like Johns Hopkins 
University Applied Physics Lab have. Wouldn't it be 
advantageous if we had those in other parts of our procurement 
so that we could have that kind of support and guidance?
    Admiral Architzel. I can only agree. But I think they are 
available to us to call on them through--as needed through--
when we have those kind of technical challenges. We can reach 
out to industry or laboratories to have that brought in in 
addition to our own field activities that have that expertise, 
perhaps not as great as--because we have new technology and we 
have to reach out to them to bring that as well. And I believe 
we do.
    Mr. Bartlett. I have been here nearly 17 years now. And the 
story has never changed. Every program is late and over cost. 
And, you know, what can we do to avoid repeating this in the 
future? And it all comes from the honest assumption on the part 
of the industry and those who are looking at the proposal that, 
gee, we really can do that. We need to have that. We really can 
do that.
    And, you know, how do we avoid the problems that are 
created by this overly optimistic assumptions of cost and 
development, which apparently is the fundamental root cause of 
the schedule overruns and the cost overruns in all of our 
programs? How can we avoid that? Now, the APL helped the Navy 
to avoid that by saying, you know, that is just overly 
optimistic. They are not going to be able to do that.
    Admiral Architzel. I believe what comes with this is proper 
systems engineering. And I don't use that as a catch phrase. I 
believe it. And we have come to that over the past year and-a-
half as we have in the Navy taken a round turn on our process 
to come forward with program development and to take what it 
means to take a requirement and then give it to industry and 
say go build this.
    When industry gets that, they don't understand enough of 
what it takes to build that to give a realistic estimate at 
times. So what we have to do is translate that requirement down 
into a lot more detail, which goes into systems design 
specification, that allows industry to know exactly what it is 
we want them to build. And they can then properly price and 
give us properly pricing to what it would be.
    To your point sometimes this is not delivered or 
intentional, some--it would just be a not understanding what 
are the ``-ilities'' that go with this. What does it mean to 
have to develop a system or a ship that will go 50 knots versus 
one that may go 42 knots or to have this high-power, high-
energy system and be able to launch aircraft at 70 million foot 
pounds to 150 knot end speed in a 360 power stroke, 360-foot 
power stroke when the Key Performance Parameter (KPP) just says 
make a sortie rate or reduce people.
    And so, we have to really understand that industry can get 
in and--we don't need just to say you can do this. But what 
does it really take to get there? And that is the work we have 
to do. We owe it to this committee. We owe it to the Navy. And 
we are working diligently to make that happen across the board.
    Unfortunately, a lot of our programs are well past this 
stage. And we are living with the--what we didn't do in the 
first. But I will tell you in future programs and forward that 
is exactly our intent, to not replicate this in the future. But 
I know that doesn't answer your question today because you 
would like to see it in all programs that have happened in the 
past.
    And we needed to do that. And we need to do that as we go 
forward. That is as straightforward an answer as I can give 
you. I think you hit exactly on what we need to do. And we 
intend to do that, sir.
    Mr. Bartlett. Thank you.
    Thank you, Mr. Chairman.
    Mr. Taylor. Thank you, Mr. Bartlett, again, with a great 
line of questioning.
    The chair now recognizes Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman. I think this was an 
interesting lesson in acquisition reform. And I think the 
committee has made great steps in terms of providing some 
guidance in having one individual responsible for this project, 
that is going to stay with the project.
    Mr. Chairman, I am a simple Army, Marine Corps infantry 
guy. And I would like to defer to some of the other members 
that have expertise, technical expertise if they would like to 
ask any other questions and defer my time.
    Mr. Taylor. Thank you, Mr. Coffman.
    Any follow-up questions? I have a few myself, but I would 
certainly want to let you gentleman go first.
    Mr. Bartlett. I appreciate very much the hearing. I am 
sorry I have got to run. I am now a half-hour late. But it was 
so important I stay. Thank you very much.
    Mr. Taylor. Thank you, Mr. Bartlett.
    Mr. Wittman.
    Mr. Wittman. Go ahead, Mr. Chairman. I can follow-up after 
you.
    Mr. Taylor. Gentlemen, a couple of quick things that I am 
curious about. I will use the analogy we have a new generation 
of turbine. You can look at a previous generation, look at the 
new one and have some idea whether you are repeating a past 
mistake or making improvements--diesel engines, bombs.
    With so many of these technologies being new, I am curious 
what you use as your benchmark to know if you are going in the 
right direction. So I am going to ask a couple questions along 
that line. With the motor generators, is there anything similar 
to that commercially available anywhere of that size or 
capacity right now?
    Captain Mahr. There are commercially available motor 
generators. They don't have the same power density that we do. 
So we have----
    Mr. Taylor. By a factor of what, Admiral?
    Captain Mahr. I can get you that answer, sir. I have not 
done an industry survey recently.
    Mr. Taylor. Well, give me an idea. Is this twice as large, 
10 times as large? It is something that you could go out and--
--
    Captain Mahr. I will go back and get--I believe we are less 
than twice as power dense as the commercial ones. We are not a 
huge leap. And we have to go back a little bit in history.
    In 2004, we were pretty far ahead. But commercial 
technology has caught on.
    Mr. Taylor. All right. Okay, your prime power interface 
system, the one you are going to use for this program--is there 
something similar to it that is on an existing Navy program? Is 
this substantially larger than anything else you are using?
    Captain Mahr. No, sir, it is comparable to what industry 
uses.
    Mr. Taylor. Okay. So you don't expect any surprises there?
    Captain Mahr. No, sir. Transformer rectifiers have been 
around for a long time. The control technology has been around. 
So this is really tuning it for our circuit.
    Mr. Taylor. And I realize there is not another 
electromagnetic launch out there. But is that technology being 
used, again, commercially in a different form but similar form? 
And where would that be?
    Captain Mahr. Yes, sir. Linear induction motors are used in 
various applications in industry. We are at a larger scale, 
obviously, than most of those. But the graham ring motor is a 
well-understood technology.
    Mr. Taylor. And it is used where, Admiral?
    Captain Mahr. I will get you some examples. I don't have 
any off the top of my head.
    Mr. Taylor. Just for my information, your motor generator 
is spinning at 4,200 RPM. How much does it drop with each 
launch?
    Captain Mahr. If I can just make a statement. It was 4,200 
RPM--we are now operating at 4,000.
    Mr. Taylor. Okay.
    Captain Mahr. We lowered the operating point a little bit. 
Over a sequence of launches if we launched a full deck of 
aircraft, the motor generator will bottom out somewhere around 
2,400 RPM.
    Mr. Taylor. How much, sir?
    Captain Mahr. Two thousand, four hundred.
    Mr. Taylor. Okay.
    Admiral Architzel. Mr. Chairman?
    Mr. Taylor. And the recovery time is what, sir, the 
recovery time to get that----
    Captain Mahr. It starts immediately, sir. So it comes back 
up. Over a very brief period of time it will be back up to 
4,000.
    Mr. Taylor. I am sorry to cut you off, Admiral.
    Admiral Architzel. No, sir. Pardon me for interrupting. I 
think it might be helpful, sir, to answer that specific 
question if Captain Mahr would walk us through what goes on 
during these high-cycle testing of the generator because it 
cuts right to your exact question.
    Mr. Taylor. We would appreciate that, Admiral.
    Admiral Architzel. And I think he can provide the answer, 
both--in three different scenarios it will show you how these 
are--this exact phenomenon is measured.
    Mr. Taylor. Sure.
    Please, Admiral.
    Captain Mahr. What scenario?
    Admiral Architzel. Carrier launches.
    Captain Mahr. Okay.
    Admiral Architzel. Cyclic ops.
    Captain Mahr. Yes, sir. In the high-cycle test ongoing at 
Tupelo right now we have three different scenarios, three main 
scenarios. We have a carrier qualification launch scenario. 
Carrier qualification in the Navy generally has a lighter 
weight aircraft and we launch them more frequently. And we have 
a cyclic ops scenario where you launch combat-weight aircraft, 
so a fully loaded aircraft. But you only launch 24 at a time 
for standard launch event.
    And then mission capable, which is degraded launch mode 
where we still want to launch the same number of aircraft for a 
cyclic ops event but we understand that we lose some 
capability, either motor generator is not available due to 
maintenance or some other issue or we lose one of the motors 
itself on the----
    In the carrier qualification episode, when the launch is 
commanded and the pulse is sent out, we have got a motor 
generator operating at 4,200 RPM. There are 12 of those 
throughout the ship. All 12 of them can supply energy to all 
four catapults.
    When the launch is commanded, the power system as a whole 
starts drawing down. What we simulate in high-cycle tests is 
that coming off of one generator. That generator starts to draw 
down as soon as the generator power starts drawing down, the 
setter side draws power off the ship's power and tries to bring 
it back up. So even as I am pulling the RPM down, just like a 
flywheel, on the other side I am trying to spin it back up.
    So we are constantly feeding energy back into the system 
and trying to keep it at in a static sense. Each time I launch 
in between launches is about 45 seconds. The energy starts 
coming back up and will not quite reach 4,200 RPM. And we will 
command another launch. It comes back down again.
    And we see this sawtooth curve. And sawtooth curve at the 
bottom will bottom out at about 2,400 RPM before it starts 
coming back up. We repeat that sequence, again, accumulate 
close to 20,000 pulses on each of those three types of----
    Mr. Taylor. It is my understanding that the A1B power plant 
on the Ford class is designed to go the entire life of the ship 
without refueling. Is that correct?
    Captain Mahr. Sir, I defer to Captain Antonio.
    Mr. Taylor. It is not?
    Captain Antonio. No, sir, it is not. There will be a 
refueling complex overhaul plan for the Ford at about mid-life.
    Mr. Taylor. And mid-life is expected to be what?
    Captain Antonio. At about the 25-year point. The ship's 
life is being designed for 50 years.
    Mr. Taylor. As a matter of curiosity, how much of that 25-
year life is used up in the launch of aircraft? What do you 
envision?
    Captain Antonio. Sir, I am not qualified to talk about the 
propulsion plan. I would have to defer that question and get 
back with you.
    [The information referred to can be found in the Appendix 
on page 53.]
    Mr. Taylor. Okay. I would be curious, obviously. It is 
going to be a new draw on the power plant that was not there in 
previous platforms.
    Going to Mr. Bartlett's excellent line of questioning, you 
are can-do people. You do not come before Congress and say we 
can't do it. That is a double-edged sword. And we do often find 
ourselves with programs like the littoral combat ship (LCS) 
where can-do people suddenly find out that the can-do attitude 
wasn't enough to make up for a contractor that failed.
    With that thought, I am particularly concerned with the 
line of questioning that Captain Massa had as to what affect 
this is going to have on the electronics systems of the 
aircraft that you launch, on the weapons systems of those 
craft. I would remind you that former governor, now Secretary 
of the Navy Mabus actually used his power as governor of 
Mississippi to prevent the Empress barge from being used off 
our shores some 20 years ago.
    So it is something that the secretary is aware of, the 
electromagnetic pulse that goes back at--and what I would hope 
is not the case is that in the Navy's effort to get what I 
consider to be a great technology on this vessel that we are 
intentionally downplaying the affects on some of these systems 
and intentionally low-balling the cost of whatever changes 
would have to come as a result of that, not so much to the 
EMALS system, but all the other electromagnetic platforms that 
are associated with that vessel, which goes to my line of 
questioning about how quickly--and Mr. Wittman's line of 
questioning and Mr. Akin's line of questioning. How quickly are 
you going to test this in conjunction with all the other things 
that are going on on that ship?
    Captain Mahr. Yes, sir. And I think the best way to answer 
it is to come back, again, to the PDRR. I was able to locate 
the data I had. The general limit right now would be 150 
millivolts for HERO, hazardous emissions to ordnance.
    In the testing we did with the full-scale, half-length 
catapult we never exceeded 120 millivolts. It is typical to 
work 40 to 80 millivolts. At the height above those troughs 
where you would see the ordnance test fired aircraft pass by. 
So we have got the field data from real tests that say we are 
okay.
    The challenge that you give us and we have already accepted 
ourselves is go through that. And that is a process that can 
take place over the next year. I am going to go validate that 
in the laboratories. We are going to put the instrumented 
aircraft over the catapult trough. We will continuously measure 
it. We will be doing that in high-cycle tests at the component 
level. And I will owe you a future brief on the data that comes 
out of those tests.
    Mr. Taylor. And whose job will it be to inform congress of 
the unintended consequences and the affects that it has on 
other systems?
    Captain Mahr. Sir, I have responsibility----
    Mr. Taylor. That is your job?
    Captain Mahr [continuing]. For the EMALS program.
    Mr. Taylor. Okay.
    Mr. Courtney, do you have any questions?
    Mr. Courtney. I am just taking a break from health care.
    Mr. Taylor. This is probably a televised hearing. It is 
probably the wrong place to hide, Mr. Courtney.
    Anyone else?
    Yes, Mr. Wittman?
    Mr. Wittman. I just wanted to ask another additional 
question and understand a little more about the administrative 
aspects of the things that have gone on. If you could, if you 
could explain the difference between what is in place now, the 
undefinitized contract action that is there with General 
Atomics on the EMALS for the USS Ford and the final contract 
action that you are pursuing. Can you tell me: Are both of 
those fixed price contracts?
    And where do those two frameworks lead us if they are risks 
that come up down the road? In other words, if there are things 
that throw us off schedule if they are production issues, if 
they are performance issues there. Who assumes the risk there, 
both from a function standpoint and then also from a time 
standpoint? Because as we know, if we get pressed on this, you 
see the--we have seen the windows here are fairly small as far 
as making sure all these pieces work.
    Who assumes the risk there? Because we all, as Mr. Bartlett 
said, we all get concerned about timing on this. And I brought 
that up as far as the production schedule for the Ford in 
relation to the Enterprise going out and that 3-year window 
where we go from 11 to 10 and then also the cost considerations 
on this. I just want to try to get you all to put that in 
perspective on what the differences are between those two.
    Captain Mahr. Yes, sir. On the--contract action that the 
Navy and General Atomics signed on June 30th is the not-to-
exceed price that will when we definitize the contract in the 
standard for definitizing that contract is 180 days, which 
would put it at the end of December. We definitize at or below 
the not-to-exceed price.
    Mr. Wittman. Okay.
    Captain Mahr. And will be a fixed price contract.
    Mr. Wittman. Okay.
    Captain Mahr. So I believe your comparison is fair that----
    Mr. Wittman. Okay. And the final contract action then is 
going to be fixed price also?
    Captain Mahr. Fixed price contract.
    Mr. Wittman. Where is the risk assumed?
    Captain Mahr. Any changes that come out of the systems 
design and development test, as an example--so if--I have 
talked about the wet motor. We have some moisture intrusion. 
The changes that come out of that are included in the cost of 
that contract. Any change I find in SDD I will fund SDD to 
develop the nonrecurring engineering on that. And that will be 
handed over to be included in the ship's--CVN-78 at no 
additional cost to the government.
    Mr. Wittman. And so, you will also have that reflected in 
the final contract action? Also it is in the----
    Captain Mahr. Yes, sir. That wording is currently in the 
undefinitized contract. That is already there.
    Mr. Wittman. Okay. All right, very good.
    Thank you, Mr. Chairman.
    Mr. Taylor. Mr. Akin.
    Mr. Akin. Thank you, Mr. Chairman.
    I had a couple of just kind of, ``gee whiz'' questions here 
to try and get a better perspective on what you are doing. 
First of all, in terms of your energy storage, you decided to 
go basically with a motor generators approach. Did you consider 
using capacitors or something like that? Or is this way beyond 
what we can do with a bank of capacitors?
    Captain Mahr. There are other technologies out there that 
may be applicable out in the future. At the time the total 
contract was proposed, General Collins was proposing the motor 
generator. So we did not look at changing that from the--
proposal. And----
    Mr. Akin. That is an old tried and true kind of thing in a 
way. But in terms of energy density, I suppose that is 
something that you are thinking about is how much space is it 
taking and all. But it does seem like it is--in a way, even 
though it is old, it seems like a bank of capacitors or 
something in a way are somewhat simpler. But----
    Captain Mahr. There is battery technology. There is other 
technology out there for future ships, again, beyond CVN-78 
that the Navy is looking at--and to Representative Bartlett's 
comments, that the labs are working on right now.
    Mr. Akin. Okay. And then the second thing, I guess, is the 
question is if you have this capacity to store up a lot of 
electrical energy and discharge it, would this ever be used in 
other kinds of weapons systems? Have you looked at that at all 
or not particularly? Or is that classified?
    Admiral Architzel. Well, it is being looked at other 
systems. As an example, that would be the rail gun.
    Mr. Akin. Say again.
    Admiral Architzel. A rail gun technology, which uses the 
same kind of technology. That is prototypical in development. 
That kind of technology is used there, as an example. And you 
mentioned----
    Mr. Akin. Where would that be sort of an anti-missile type 
of system or something or what?
    Admiral Architzel. The technology is just to at this point 
would be to accelerate a projectile, which can get to 
significantly high speeds. I would like to end the 
conversation--the discussion there because it does get into 
other areas. But that is an example of one. And also using 
technology like this can go into transportation systems as well 
when you get into use of electromagnetics on rail transport. 
Those kinds of things are being looked at, both commercially as 
well as could be looked at----
    Mr. Akin. I was thinking lasers because our chemical 
airborne laser stores energy chemically to get a lot of energy 
all stored up.
    Admiral Architzel. Yes, sir.
    Mr. Akin. This is a different way of storing some energy.
    Admiral Architzel. Yes, sir.
    Mr. Akin. Yes. Just a couple of, you know, popular science 
questions.
    Thank you, Mr. Chairman.
    Mr. Taylor. Admiral, I know that, again, going back that 
you are an admiral because you are a can-do person. You accept 
the challenge when you are given to it. You don't question 
orders. But going back to Captain Massa's question, is it fair 
to say that should this program, for whatever reason--its 
affect on other weapons systems, its affect on other ships 
nearby--for whatever reason failed to materialize, would the 
delay be more than two years? And would the additional costs to 
the taxpayers to finish this carrier be more than $2 billion?
    Admiral Architzel. Mr. Chairman, to that question directly, 
if we had to--yes, the answer would be most definitely more 
than two years and would be a significant cost.
    Mr. Taylor. So what do you think it would be, sir?
    Admiral Architzel. I really don't have a cost estimate. 
Although I do think that to go--in our discussions and come 
forward, sir, this year about with the CNO and about taking 
this to discussion--should we stay with EMALS--our discussion 
should we stay with EMALS or revert back to steam, at that time 
we looked at anywhere from 12 to 18 months delay if we had made 
the decision, say, 6 months ago. So to make that decision in 
the future would clearly be one, that when the decision was 
made by the CNO, we looked at--he looked all of us in the eye 
and particularly to the Systems Command (SYSCOM) commanders and 
myself and Mr. Stackley and said now we need to deliver on this 
system.
    It clearly is a decision made. And without having that 
would be at least a two-year delay. And the cost would be 
significant.
    Mr. Taylor. For stability purposes, is the size, weight and 
placement of the EMALS system--if it had to be replaced with a 
steam catapult--does that put you in a situation as far as 
stability and your center of gravity, center of buoyancy where 
you cannot finish the ship?
    Captain Antonio. The last part of your question threw me 
there, sir. I was going to say that the relative weights and 
location of the steam system compared to the EMALS system are 
not that significant. There is some weight difference in some 
locations in terms of center of gravity which would require a 
difference of the placement of some ballasts in the ship.
    But it is not to the point where the ship design would not 
be able to accept it if it were possible to do it if a decision 
were made. It would just be extremely costly and time-
consuming.
    Mr. Taylor. And just for the benefit of the committee 
because particularly I know the gentleman from the Tidewater 
area is very keenly aware of the delivery of carriers, as he 
should be--but for the benefit of the committee, what is the 
domino effect to our now 10-carrier fleet should this ship not 
be delivered on time? Aren't there vessels that are fairly 
close to retirement that we are planning on this vessel taking 
the place of?
    And doesn't that not put--I mean, again, just to give--make 
the members aware of the gravity of this decision. Worst case 
scenario, the vessel is delayed by three years. How many 
carriers do we have then?
    Admiral Architzel. Sir, the Enterprise is scheduled to 
decom or deactivate in November of 2012. At that point, the 
Ford will deliver, as mentioned, September of 2015. So the next 
carrier--what you have remaining at that point is the Nimitz 
class carriers.
    So you have--to that is the Nimitz itself. And so, she will 
run up towards 50 years. And I will have to get exactly when 
that is. But she comes in around the time we would be, on the 
current schedule, somewhere close to when we would be with the 
next CVN-79 delivered. So that is about the timeframe--to put 
you on the 2012, 2013 timeframe.
    Mr. Taylor. This is a reminder we did give the Navy in this 
year's bill temporary permission to dip down to, I believe, 10 
carriers. And so, the failure for this ship to deliver on time 
makes it, not just a three-year permission. It could extend it 
out to six, seven years. And that is why, again, for all the 
reasons that you have heard our concerns today that this has to 
work.
    I would like to tell the committee that I had a lengthy 
conversation with the secretary of the Navy on this last 
Friday, that he is very much onboard with our language to have 
a clear line of authority as to who is responsible for this 
program, a clear transition from one officer to another. And, 
again, I very much appreciate you gentlemen being here today.
    If there are no further questions, I would hope that on 
those things that were unanswered today that you would get back 
to us. Is two weeks a reasonable amount of time to get those 
answers?
    Admiral Architzel. Yes, sir, we can do that, Mr. Chairman.
    Mr. Taylor. Okay.
    Any further questions? The subcommittee stands adjourned.
    [Whereupon, at 11:37 a.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             July 16, 2009

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 16, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T2945.001
    
    [GRAPHIC] [TIFF OMITTED] T2945.002
    
    [GRAPHIC] [TIFF OMITTED] T2945.003
    
    [GRAPHIC] [TIFF OMITTED] T2945.004
    
    [GRAPHIC] [TIFF OMITTED] T2945.005
    
    [GRAPHIC] [TIFF OMITTED] T2945.006
    
    [GRAPHIC] [TIFF OMITTED] T2945.007
    
    [GRAPHIC] [TIFF OMITTED] T2945.008
    
    [GRAPHIC] [TIFF OMITTED] T2945.009
    
    [GRAPHIC] [TIFF OMITTED] T2945.010
    
    [GRAPHIC] [TIFF OMITTED] T2945.011
    
    [GRAPHIC] [TIFF OMITTED] T2945.012
    
    [GRAPHIC] [TIFF OMITTED] T2945.013
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             July 16, 2009

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. TAYLOR

    Captain Antonio. The reactor energy needs projected for aircraft 
launching is less than 2% of total energy budget for CVN 78 class ships 
regardless of catapult system. Therefore, over the 25-year life, it is 
projected that less than 2% will be used in the launching of aircraft. 
[See page 28.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             July 16, 2009

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. TAYLOR

    Mr. Taylor. ``Prior to committing to EMALS as the aircraft launcher 
for CVN-21/CVN-78, what real-world tests, simulations, modeling, 
calculations, etc., did the Navy perform to assure itself that EMI/EMP 
from EMALS would not create a problem for aircraft, munitions, and 
other shipboard systems? If the Navy performed real-world tests, were 
these full-scale tests involving actual aircraft, munitions, other 
shipboard systems, and full-scale, full-power EMALS technology?
    Admiral Architzel. An EMALS Electromagnetic Environmental Effects 
(E3) Working Group consisting of subject matter specialists was 
established early in the EMALS program to examine E3 impacts to 
personnel, aircraft, ordnance and equipment. The EMALS E3 program is 
being conducted in accordance with the well established processes 
described in the Department of Defense Handbook on Electromagnetic 
Environmental Effects and Spectrum Certification Guidance for the 
Acquisition Process (MIL-HDBK-237). The program includes early 
characterization testing on full scale, full power hardware; 
calculation, modeling and analysis using well established techniques to 
assess compliance with requirements; and standard design techniques to 
mitigate risks.
    During the EMALS Program Definition and Risk Reduction phase, the 
Navy conducted Electromagnetic Interference (EMI) and Electromagnetic 
Pulse (EMP) characterization testing using full scale, full power EMALS 
technology. During this phase the Navy used instrumentation--including 
Gauss Meters with 3-axis probes, Spectrum Analyzers, and loop 
antennas--as surrogates for aircraft, munitions, and shipboard systems. 
Testing examined EMI, magnetic, ordnance, and personnel risks at the 
component and system levels to define the EMALS-generated E3 
environments. The data was compared to previously conducted modeling 
and simulation and aircraft, munitions, and shipboard design 
specifications. The results of the testing were used to validate the 
analytical models and refine the simulations used to establish the 
EMALS design requirements prior to entering the System Development and 
Demonstration phase.
    The E3 characterization results were also used to support modeling 
and analyses to predict emissions from the EMALS power components and 
cable systems below deck. Standard practices for integration of high-
power shipboard machinery, including separation distances (e.g., 
isolation of equipment and cable arrangement), shielding, and 
filtering, were then incorporated into the ship design and arrangement 
to insure that safe stand-off requirements were provided.
    Mr. Taylor. If the Navy, prior to committing to EMALS as the 
aircraft launcher for CVN-21/CVN-78, did not employ real-world tests 
involving actual aircraft, munitions, other shipboard systems, and 
full-scale, full-power EMALS technology, what is the risk that the Navy 
will discover at some point that EMI/AMP from EMALS does indeed create 
a problem for aircraft, munitions, or other shipboard systems? Since 
EMALS is critical to making the ship capable of supporting CTOL 
aircraft operations, and since problems for aircraft, munitions, and 
other shipboard systems created by EMI/EMP from EMALS could prevent the 
Navy from using (or fully using) EMALS, was it wise for the Navy to 
commit to EMALS without conducting such tests?
    Admiral Architzel. The EMALS Electromagnetic Environmental Effects 
(E3) program is being conducted in accordance with well established 
processes described in the Department of Defense Handbook on 
Electromagnetic Environmental Effects and Spectrum Certification 
Guidance for the Acquisition Process (MIL-HDBK-237). The E3 program 
consists of early characterization testing on full scale, full power 
hardware; calculation, modeling and analysis, using well established 
techniques to assess compliance with requirements; and standard design 
techniques to mitigate risks. Analyses of the observed and projected 
operational levels of Electromagnetic Interference (EMI) show no 
emission characteristics that require mitigation steps beyond the 
standard techniques used to integrate high power electrical/electronic 
systems in the ship.
    E3 testing will continue through 2010 on full scale catapult 
systems and subsystems using instrumentation, aircraft and weapons 
firing circuits. If necessary, additional mitigation, including 
adjustments to space arrangements, separation distances (isolation & 
cable arrangement), shielding, and filtering will be incorporated.
    Modeling, analysis, design mitigations, and testing throughout the 
development of EMALS have provided an appropriate level of assurance 
that the system will operate properly.
    Mr. Taylor. If it turns out that EMI/EMP from EMALS creates 
problems for aircraft, munitions, or other shipboard systems, what 
would be the potential strategies for mitigating or working around 
these problems?
    Admiral Architzel. The Electromagnetic Interference (EMI) and 
Electromagnetic Pulse (EMP) test results obtained during the EMALS 
Program Definition and Risk Reduction phase were used to support 
analyses characterizing the emissions from the EMALS power components 
and cable systems below deck. Standard practices for integration of 
high-power shipboard machinery--including separation distances (e.g., 
isolation of equipment and cable arrangement), shielding and 
filtering--were then incorporated into the ship design and arrangement 
to ensure that safe stand-off distances were provided. These techniques 
will be applied if further mitigation is required.
    Mr. Taylor. What elements of the EMALS development effort do the 
Navy consider to be more than low risk (i.e., low-to-moderate, 
moderate, moderate-to-high, or high risk)? What are the risk levels for 
these elements? What are the dates when the Navy expects to learn 
whether these elements of the EMALS development effort have been 
successfully completed?
    Admiral Architzel. The EMALS Risk Management Program assesses risk 
levels on a monthly basis as low, moderate or high based on their 
impact on performance, schedule and cost. Assessments are conducted by 
senior personnel assigned to the EMALS program in accordance with the 
PMA 251 Risk Management Process. The Navy, General Atomics and Northrop 
Grumman participate in both the monthly EMALS Program Risk Assessment 
Board and CVN 21 Program Risk Board meetings.
    As of July 16, 2009, the program assessed nine risks at the 
moderate level and none at the high level. Specifically:

    <bullet>  If EMALS emissions exceed Hazardous Radiation to Ordnance 
(HERO) limits, then shipboard ordnance handling may be affected, 
requiring changes to ship design. This risk is moderate with a plan to 
mitigate to low, via testing of EMALS components during 2010.

    <bullet>  If EMALS equipment is damaged during storage at the Lead 
Design Yard or during ship installation, then ship construction delays 
or program cost increase may result. This risk is currently moderate 
with a plan to mitigate it to low in early 2010.

    <bullet>  If unanticipated shared Energy Storage Subsystem (ESS) 
performance problems are observed during testing on the ship, the 
catapult commissioning and testing schedule may be impacted. This risk 
is currently moderate with a plan to mitigate it to low in mid-2011.

    <bullet>  If the Prime Power Interface Subsystem (PPIS) 
transformer/rectifier fails shock testing and correction requires a 
significant design change to the enclosure, transformer or choke 
design, the ship construction schedule may be impacted. This risk is 
currently moderate with a plan to mitigate it to low by the end of 
2010.

    <bullet>  If Launch Motor Subsystem (LMS) stator assembly fails 
Environmental Qualification Tests, the LMS production schedule may be 
impacted to correct and retest the deficiencies. This risk is currently 
moderate with a plan to mitigate it to low by the end of 2010.

    <bullet>  If EMALS topside emissions exceed system interference or 
Emissions Control (EMCON) thresholds, design changes may be needed to 
EMALS or topside ship arrangements. This risk is currently moderate 
with a plan to mitigate it to low by testing the EMALS components 
during 2010.

    <bullet>  If the motor support structure production rate observed 
during the System Development and Demonstration (SDD) phase cannot be 
improved during ship set production, the LMS may not meet Required In-
Yard Dates (RIYDs) for installation of the third and fourth catapult. 
This risk is currently moderate with a plan to mitigate it to low by 
the end of 2009.

    <bullet>  If the Motor/Generator (M/G) production rate observed 
during the SDD phase cannot be improved during ship set production, 
some M/Gs may not meet the RIYDs. This risk is currently moderate with 
a plan to mitigate it to low by the end of 2009.

    <bullet>  If the development test program is unable to fully test 
the Power Conversion Subsystem (PCS) shared inverter shipboard 
configuration (3 Inverters per phase and a set of inverters being 
shared between two launchers), ship integrated testing may be delayed. 
This risk is currently moderate with a plan to mitigate it to low by 
the end of July of 2009.

    All other EMALS risks are currently assessed as low.
    Mr. Taylor. How many months of additional delay, in which elements 
of the EMALS development effort, can be absorbed without affecting the 
construction schedule or construction cost of CVN-78?
    Admiral Architzel. EMALS has specific Required In-Yard Dates (RIYD) 
for each component. In general, the EMALS CVN 78 production delivery 
schedule maintains at least six months of margin to the RIYD for all 
components with the exception of some of the Launch Motor Subsystem 
(LMS) trough components and Energy Storage Subsystem (ESS) Motor 
Generators. LMS components have at least five months of margin, while 
the two key ESS Motor Generators have approximately two months each. 
Production of LMS and ESS components is ongoing and being closely 
monitored.
    Mr. Taylor. What has been the cost and schedule performance of the 
EMALS development effort since the start of the year?
    Admiral Architzel. The EMALS System Development and Demonstration 
(SDD) Phase Cumulative Cost Performance Index declined slightly in 
June, representing an increase in the existing cost variance. This 
existing cost variance was due to the cost of delays initially 
encountered in the delivery of equipment to the full scale test site at 
Lakehurst in the last quarter of calendar year 2008. The Cumulative 
Schedule Performance Index improved during the same period. Using a 
critical path analysis, program execution, which was four months behind 
the baseline schedule in January, has been reduced to three months 
behind the baseline schedule.
    Mr. Taylor. When the Navy originally awarded EMALS to General 
Atomics, why did the Navy not immediately begin taking steps to help 
General Atomics evolve from being an entity with a strength in research 
and development into one that was also strong in manufacturing and 
production?
    Admiral Architzel. The Navy selected General Atomics (GA) in 2004 
to design and produce the next generation Navy catapult following a 
competitive prototyping effort. Based on successful prototype testing, 
GA was chosen as the industry partner with the best capability to 
provide this technology. The Navy has worked with GA since that time.
    Early in the Program Definition and Risk Reduction phase, the Navy 
emphasized the need for GA to strengthen its manufacturing and 
production capability. The development of the GA Tupelo, Mississippi 
manufacturing facility to produce the launch motor and power 
conditioning systems for the System Design and Development (SDD) and 
production phases resulted, in part, from these discussions. Lessons 
learned during production of the SDD units have been used to improve 
processes for ship set manufacturing. The Navy has strongly supported 
GA's efforts to pursue appropriate industry certifications and increase 
staffing in engineering, production planning and scheduling. In late 
2007, GA and the Navy conducted joint production assessment reviews of 
the EMALS program that resulted in specific recommendations for 
processes and leadership improvements. Implementation of these 
recommendations resulted in the addition of senior managers with 
production experience at GA, and improved production planning utilizing 
a resourced integrated master schedule. The Navy and GA continue to 
work together to provide a manufacturing and production capability 
using well defined Production Readiness Review processes and applicable 
elements of the Navy's Flight Safe manufacturing and quality assurance 
standards.

                                  <all>

</pre></body></html>
